                                 Office of Inspector General
                       Corporation for National and Community Service




                                           Audit of
                       Corporation for National and Community Service
                                Grant Number 97LHEDC00 1
                                              to
                        American Association of Community Colleges
                                       Washington, D.C.

                               OIG Audit Report Number 02-03
                                        July 3,200 1




                                    Financial Schedules and
                                 Independent Auditor's Reports

                                       For the Period
                             September 1,1997 to August 3 1,2000




                        Delivery Order S-OPRAQ-99-D-0020-CNS-07
                             Leonard G. Birnbaum and Company
                                 Certified Public Accountants
                                    6285 Franconia Road
                                 Alexandria, Virginia 223 10


This report was issued to Corporation management on December 27, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than June 28,2002, and complete its corrective
actions by December 27,2002. Consequently, the report's findings do not necessarily represent the
final resolution of the issues presented.
                                                                                 CORPORATION

                                                                                 FOR NATIONAL

                                                                                  SERVICE

                             Office of Inspector General
                   Corporation for National and Community Service

       Audit of Corporation for National Service Grant Number 97LHEDC001
       To the American Association of Community Colleges, Washington, D. C.

                            OIG Audit Report Number 02-03


The Office of Inspector General engaged L. G. Birnbaum and Company, LLP to audit costs
claimed by the American Association of Community Colleges under CNCS grant number
97LHEDC001. The audit covered the period July 1, 1997 through June 30, 2000 and
included procedures to determine if costs claimed in financial reports prepared by the
Association were allowable, internal controls were adequate to safeguard Federal funds, and
whether the Association had policies and procedures adequate to ensure compliance with
Federal laws, applicable regulations and award conditions.

As a result of the work performed, the auditors are questioning $72,542 (9 percent) of the
$769,500 costs claimed over the three year period; $52 thousand of the questioned costs
results from inadequate documentation. The report discusses this condition in detail and
provides information on other compliance issues as well as other questioned costs.

CNCS OIG reviewed the report and the work papers supporting its conclusions. We agree
with the findings and recommendations presented. The Corporation's and American
Association of Community Colleges' responses to this report, which disagree with certain of
the findings and recommendations, are discussed within the report and included in their
entirety as Appendices A and B, respectively.




                                                                             Inspector General
                                                                             1201 New York Avenue, NW
                                                                             Washington, DC 20525
                                       Office of Inspector General
                            Corporation for National and Community Service
                         Audit of Corporation for National and Community Service
                                         Grant No. 97LHEDC001
                                                      to
                                  American Association of Community Colleges
                                              Washington, D.C.

                                                        Table of Contents
                                                                                                                             Paae
REPORT SUMMARY AND HIGHLIGHTS:

        Summary of Audit Results .............................................................................                 1

        Purpose and Scope of Audit ...........................................................................                 3

        Background ....................................................................................................       4


INDEPENDENT AUDITOR'S REPORT ..................................................................                                6


FINANCIAL SCHEDULES :

        Exhibit A - Schedule of Award Costs - September 1, 1997 - August 3 1, 2000                                             9

        Schedule A-1 - Schedule of Award Costs - September 1, 1997 - August 3 1, 1998                                         10

        Schedule A-2 - Schedule of Award Costs - September 1, 1998 - August 31, 1999                                          11

        Schedule A-3 - Schedule of Award Costs - September 1, 1999 - August 3 1,2000                                          12

        Notes to Financial Schedules .........................................................................                13

        Exhibit B - Explanation of Questioned Costs ................................................                          14


INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
CONTROL OVER FINANCIAL REPORTING .......................................................                                      23

                   Finding No. 1 - AACC was unable to adequately monitor
                   subgrantee costs claimed because documentation was not
                   obtained.. ............................................................................................    24
                                       Office of Inspector General
                           Corporation for National and Community Service
                        Audit of Corporation for National and Community Service
                                        Grant No. 97LHEDC001
                                                    to
                             American Association of Community Colleges
                                            Washington, D.C.

                                              Table of Contents - continued



                 Finding No. 2 - Subgrantee costs were charged to the grant
                 in excess of the amount claimed by the subgrantees ..........................                             24

                 Finding No. 3 - AACC could not locate documentation
                 for two expenditures and applied costs charged in one
                 fiscal year to another ..........................................................................         25

                 Finding No. 4 - Retirement fringe benefits were incorrectly
                 computed.. ..........................................................................................     27

                 Finding No. 5 - Unreasonable hotel charges ......................................                         27

                 Finding No. 6 - AACC did not record all match costs to
                 the general ledger that were chargeable to the grant ..........................                           28

                  Finding No. 7 - The Corporation has not implemented specific
                  Learn and Serve monitoring policies, procedures and guidelines
                  nor does it require that documentation be maintained that would
                  provide evidence of ongoing monitoring activity or procedures
                  per formed ...........................................................................................



RESPONSES TO REPORT .....................................................................................Appendix A, B
REPORT SUMMARY AND HIGHLIGHTS
                           LEONARD G . BIRNBAUM                         AND     COMPANY, L L P
                                             CERTIFIED PUBLIC ACCOUNTANTS
                                                       WASHINGTON OFFICE
                                                      6285 FRANCONIA ROAD
                                                    ALEXANDRIA, VA 22310-2510


                                                          (703) 922-7622
                                                        FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                                   WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                             SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                                REDWOOD CITY. CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




       Inspector General
       Corporation for National and Community Service


       This report is issued under an engagement to audit the costs claimed by the American Association
       of Community Colleges from September 1, 1997 through August 3 1,2000.

       Our audit covered the funds awarded by the Corporation under Grant No. 97LHEDC001 to the
       American Association of Community Colleges for the period September 1, 1997 through August 3 1,
       2000 for its Learn and Serve America program. Our audit focused on claimed costs, compliance
       with Federal laws, applicable regulations and award conditions and internal controls and disclosed
       the following:

                                                                                               Percentage
                                                 Period                 Amount
                                                                        - -                     Of Total
                   Award Budget               09/97 - 08/00             $     769,500
                   Claimed Costs              09/97 - 08/00             $     769,500                100%
                   Questioned Costs           09/97 - 08/00             $      72,542                  9%


                                          SUMMARY OF AUDIT RESULTS

       As a result of our audit of the aforementioned award, we are questioning costs totaling $72,542,
       which are summarized below and detailed in Exhibit B of the Independent Auditor's report.
       Questioned costs are costs for which there is documentation that the recorded costs were expended
       in violation of the law, regulations or specific conditions of the award, or those costs which require
       additional support by the grantee or which require interpretation of allowability by the Corporation.




                                MEMBERS O F THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National and Community Service




The following schedule summarizes the costs questioned on the above award by reason:

                        Explanation                                                  Federal
Submantees

H      Inadequately documented costs                                                $ 52,556

       Costs charged to incorrect program year                                          13,390

H      Excess costs claimed                                                              5,016

       Indirect costs                                                                    1,202

American Association of Community Colle~es

H      Excess Retirement fringe benefits                                                  780

H      Inadequately documented direct costs                                               89 1

H      Unreasonable hotel charges                                                         410

H      Cost claimed in incorrect program year                                             489

H      Indirect costs                                                                   (2,192)

               Total Questioned Costs                                               $   72.542

For a complete discussion of these questioned costs, refer to the Independent Auditor's Report and
Financial Schedules.

Our audit disclosed no material weaknesses in the American Association of Community Colleges'
internal controls. However, we found several instances of noncompliance with Federal laws,
applicable regulations and award conditions, including:

        American Association of Community Colleges was unable to provide adequate supporting
        documentation for $ 52,556 of subgrantee costs claimed.

        American Association of Community Colleges claimed $13,390 for subgrantee costs
        incurred in the wrong period, and
Inspector General
Corporation for National and Community Service



       American Association of Community Colleges claimed $5,016 of subgrantee costs in excess
       of the costs claimed by the subgrantee.

These and other findings are reported in our Report on Compliance and Internal Controls over
Financial Reporting (page 22).


                              PURPOSE AND SCOPE OF AUDIT

Our audit covered the costs claimed under Grant No. 97LHEDC001 during the period September
1, 1997 through August 3 1,2000, the award period. The objectives of our audit were to determine
whether:

       1.      Financial reports prepared by American Association of Community Colleges
               presented fairly the financial condition of the award;

       2.      The internal controls were adequate to safeguard Federal funds;

       3.      American Association of Community Colleges had adequate procedures and controls
               to ensure compliance with Federal laws, applicable regulations and award conditions;

       4.      The award costs reported to the Corporation were documented and allowable in
               accordance with the award terms and conditions; and

       5.      American Association of Community Colleges had adequate procedures and controls
               to track and report progress toward achievement of the program objectives.

We performed the audit in accordance with generally accepted auditing standards, and Government
Auditing Standards (1994 Revision) issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the schedule of award costs (Exhibit A), are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in Exhibit A. An audit also includes assessing the accounting principles
used and significant estimates made by the auditee, as well as evaluating the overall financial
schedule presentation. We believe our audit provides a reasonable basis for our opinion.
Inspector General
Corporation for National and Community Service


We provided a draft of this report to the Corporation's Office of Grants Management and to
American Association of Community Colleges. Their responses, included in their entirety as
Appendices A and B, respectively, and summarized within the body of this report, take issue with
some of the report's findings and recommendations.


                                       BACKGROUND

The Corporation awarded Grant Number 97LHEDC001 in the amount of $769,500 for the period
September 1, 1997 through August 3 1,2000, to the American Association of Community Colleges
for its Learn and Serve America: Higher Education program to increase the number, quality and
sustainability of service learning programs in several community colleges around the country. The
program features model programs, national data collection and dissemination, and an information
clearinghouse. Professional development opportunities are also provided as well as technical
assistance through regional workshops, mentoring, presentations, publications, a Web site and a
consultant referral service.
INDEPENDENT AUDITOR'S REPORT
                         LEONARD G . BIRNBAUM                        AND     COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                          WASHINGTON. D.C.

LEONARD G. BIRNBAUM                                                                                    SUMMIT. NEW JERSEY

DAVID SAKOFS                                                                                       REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M . CLARKE




       Inspector General
       Corporation for National and Community Service

                                    INDEPENDENT AUDITOR'S REPORT

       We have audited the costs incurred by American Association of Community Colleges under
       Corporation for National and Community Service award number 97LHEDC001 for the period
       September 1, 1997 through August 3 1, 2000. These costs, as presented in the schedule of award
       costs (Exhibit A), are the responsibility of American Association of Community Colleges'
       management. Our responsibility is to express an opinion on Exhibit A based on our audit.

       We conducted our audit in accordance with auditing standards generally accepted in the United
       States of America, and Government Auditing Standards (1994 Revision), issued by the Comptroller
       General of the United States. Those standards require that we plan and perform the audit to obtain
       reasonable assurance about whether the financial schedules are free of material misstatement. An
       audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
       financial schedules. An audit also includes assessing the accounting principles used and significant
       estimates made by management, as well as evaluating the overall financial schedule presentation.
       We believe our audit provides a reasonable basis for our opinion.

       The accompanying financial schedules were prepared for the purpose of complying with the
       requirements of the award agreement as described in Note 1, and are not intended to be a complete
       presentation of financial position in conformity with generally accepted accounting principles of the
       United States.

       In our opinion, except for $72,542 in questioned costs, the Schedule of Award Costs referred to
       above presents fairly, in all material respects, the costs claimed for the period September 1, 1997 to
       August 3 1,2000, in conformity with the award agreements.




                             MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National and Community Service


In addition to this report on our audit of the accompanying financial schedules, we are also issuing
a separate Report on Compliance and on Internal Control Over Financial Reporting. The Report on
Compliance and on Internal Control Over Financial Reporting is an integral part of an audit
conducted in accordance with Government auditing Standards and, in considering the results of this
audit, should be read along with the auditor's report on the financial schedules.

This report is intended for the information and use of the Corporation for National and Community
Service's Office of the Inspector General, as well as the management of the Corporation for National
and Community Service, and the American Association of Community Colleges and its
subrecipients. However, this report is a matter of public record and its distribution is not limited.

                                           a-.\.         J\ '2h wC
                                              Leonard G. Birnbaum and



Alexandria, Virginia
July 3,200 1
FINANCIAL SCHEDULES
                                                                                                     Exhibit A
                                   American Association of Community Colleges
                     Corporation for National and Community Service Award No. 97LHEDC001
                                              Schedule of Award Costs
                                    From September 1, 1997 to August 3 1,2000




                                                                                                  Exhibit B
                                            Approved             Claimed            Questioned      Note
     Cost Category                           Budget               Costs               Costs       Reference


Personnel Services
Fringe Benefits

Subtotal


Training
Monitoring
Dissemination
Postage and Printing
Publishing Services
Recruitment
Computer Equipment
Evaluation
Travel
Supplies and Telephone
Indirect Costs

Subtotal


Subgrantee Costs




TOTAL FEDERAL FUNDS




                        The accompanying notes are an integral part of this financial schedule.



                                                          9
                                                                                                  Schedule A- 1

                                   American Association of Community Colleges
                     Corporation for National and Community Service Award No. 97LHEDC001
                                              Schedule of Award Costs
                                     From September 1, 1997 to August 3 1, 1998



                                                                                                  Exhibit B
                                             Approved            Claimed            Questioned      Note
     Cost Category                            Budget              Costs               Costs       Reference


Personnel Services
Fringe Benefits

Subtotal


Training
Monitoring
Dissemination
Postage and Printing
Publishing Services
Recruitment
Computer Equipment
Evaluation
Travel
Supplies and Telephone
Indirect Costs

Subtotal


Subgrantee Costs



TOTAL FEDERAL FUNDS




                        The accompanying notes are an integral part of this financial schedule.




                                                          10
                                                                                                  Schedule A-2
                                   American Association of Community Colleges
                     Corporation for National and Community Service Award No. 97LHEDCOOl
                                              Schedule of Award Costs
                                    From September 1, 1998 to August 3 1, 1999




                                                                                                  Exhibit B
                                            Approved              Claimed            Questioned     Note
     Cost Category                           Budget                Costs               Costs      Reference


Personnel Services
Fringe Benefits

Subtotal


Training
Monitoring
Dissemination
Postage and Printing
Publishing Services
Recruitment
Computer Equipment
Evaluation
Travel
Supplies and Telephone
Indirect Costs

Subtotal


Subgrantee Costs



TOTAL FEDERAL FUNDS




                        The accompanying notes are an integral part of this financial schedule.



                                                          11
                                                                                                    Schedule A-3
                                   American Association of Community Colleges
                     Corporation for National and Community Service Award No. 97LHEDC001
                                              Schedule of Award Costs
                                    From September 1, 1999 to August 3 1,2000




                                                                                                    Exhibit B
                                             Approved              Claimed          Questioned        Note
     Cost Category                            Budnet                Costs             Costs         Reference


Personnel Services
Fringe Benefits

Subtotal


Training
Monitoring
Dissemination
Postage and Printing
Publishing Services
Recruitment
Computer Equipment
Evaluation
Travel
Supplies and Telephone
Indirect Costs

Subtotal


Subgrantee Costs




TOTAL FEDERAL FUNDS                        $.   236,750        $     236,750        $      15.504




                        The accompanying notes are an integral part of this financial schedule.


                                                          12
                        American Association of Community Colleges
          Corporation for National and Community Service Award No. 97LHEDC001
                                 Notes to Financial Schedules

1.   Summary of Significant Accounting Policies

     Accounting Basis

     The accompanying financial schedules, Exhibit A, Schedule A-1, A-2 and A-3, have been
     prepared from the books of account of the American Association of Community Colleges.
     The Association, a non-profit organization, was founded in 1920 to provide leadership and
     services in support of community, junior and technical colleges. The accompanying financial
     schedules are not a full set of financial statements of the Association but rather a special
     report compiled to present costs claimed under Corporation for National and Community
     Service award number 97LHEDC001. The basis of accounting utilized differs from generally
     accepted accounting principles. The following information summarizes these differences.

     A.       Equity

              Under the terms of the award, all funds not expended according to the award
              agreement and budget at the end of the award period are to be returned to the
              Corporation. Therefore, American Association of Community Colleges does not
              maintain any equity in the award and any excess of cash received from the
              Corporation over final expenditures, excluding any interest retained in accordance
              with OMB Circular A-1 10, is due back to the Corporation.

     B.       Equipment

              Equipment is charged to expense in the period during which it is purchased instead
              of being recognized as an asset and depreciated over its useful life.

              Title to equipment acquired under Federal grants rests in American Association of
              Community Colleges while used in the program for which it is purchased or in other
              future authorized programs. However, the Corporation has a reversionary interest in
              the equipment. Its disposition, as well as the ownership of any proceeds therefrom,
              is subject to Federal regulations.

     C.       Supplies

              Minor materials and supplies are charged to expense when purchased.
                                                                                     Exhibit B
                                                                                    Page 1 of 8

                       American Association of Community Colleges
         Corporation for National and Community Service Award No. 97LHEDC001
                              Explanation of Questioned Costs
                         From September 1, 1997 to August 3 1,2000


Costs Questioned at the Grantee, AACC

We have questioned the following costs incurred by the grantee, American Association of
Community Colleges.

       DESCRIPTION                   FY 1998        FY 1999           FY 2000     SUMMARY

      Fringe benefits               $               $    232      $       548        $    780


      Non-personnel costs

      Direct
      Inadequate Documentation

      Cost claimed in incorrect
             program year

      Unreasonable hotel charges

       Indirect costs

       Subtotal


       Questioned costs


1.     Fringe Benefits

       AACC claimed excess Retirement Benefits costs of $232 and $548 in grant fiscal years 1999
       and 2000. Retirement Benefits were computed by the payroll system on 100 percent of the
       Project Coordinator's salary rather than the 80 percent that was allocated to the program.
       Other employee retirement costs that could have been allocated to the grant were excluded.
       The Grant Award Provisions for Learn and Serve America: Higher Education Programs,
                                               14
                                                                                          Exhibit B
                                                                                         Page 2 of 8

      Section B.22.a. states that "financial management systems must be capable of distinguishing
      expenditures attributable to this grant from expenditures not attributable to this grant." We
      recomputed retirement costs based on allocable salaries to determine the amounts chargeable
      to the program and noted excess costs claimed of $780 for fiscal years 1999 and 2000.

2.    Direct Costs

      Inadequate Documentation - Fiscal Year's 1998 and 1999

      Travel and Training costs of $456 and $435 in grant fiscal years 1998 and 1999 were
      unsupported by adequate documentation. AACC was unable to locate the documentation
      requested and suggested that it may have been misfiled. The Grant Award Provisions for
      Learn and Serve America: Higher Education Programs, Section B.22.b. states that "the
      Grantee must maintain adequate supporting documents for every expenditure (Federal and
      non-Federal) and in-kind contributions made under this Grant. Costs must be shown in
      books or record, and must be supported by a source document, such as receipt, travel
      voucher, invoice, bill, affidavit, in-kind voucher or similar document." OMB Circular A-
      122, Attachment A, General Principles, A.2.g. states that "to be allowable under an award,
       costs must ...be adequately documented." Accordingly, we have questioned these amounts.

American Association of Community Colleges' Response

      AACC does not contest that it does not have documentation in support of $456 questioned
      hotel accommodation costs. AACC takes exception to $435 of questioned travel costs,
      asserting that confirmation that the mentor did visit his mentee is available and that no single
      expense of the $166 for meals, taxi, tips and parking exceeded $25 and, hence, no receipts
      were required.

Auditor's Comment

      We do not understand how AACC can reach this conclusion since it was unable to produce
      a travel voucher. Our position on these questioned costs is unchanged.

       Cost Charged
                -   to Incorrect Program Year - Fiscal Year 2000

       AACC purchased an airline ticket and claimed travel expense of $489 in grant fiscal year
       2000 and later applied the cost to travel taken in fiscal year 2001. The trip originally
       scheduled in 2000 was canceled and the funds were used in the following grant fiscal year
       for other travel. AACC did not reprogram the funds fi-om the year 2000 to 2001. The Grant
                                                                                           Exhibit B
                                                                                          Page 3 of 8

      Award Provisions for Learn and Serve America: Higher Education Programs, Section B.22.a.
      states that the financial management system must be able to identify costs by programmatic
      year ... Consequently, travel costs claimed in grant fiscal year 2000 are overstated by $489.

      On numerous occasions AACC charged prepaid travel costs such as airline tickets and hotel
      reservations to the grant when payment was submitted, rather that when the trip was actually
      taken. Travel vouchers submitted later would include only the balance of costs incurred.
      When the trip is canceled and the cost applied to another trip in a different fiscal year, as
      noted above, costs are overstated in one year and understated in the next.

American Association of Community Colleges' Response

      AACC disagrees with the $489 of costs which were questioned because the cost was claimed
      in a grant year earlier than when the costs were incurred. AACC feels that use of funds,
      available as a result of a canceled trip, in a future period is appropriate because such did "not
      waste CNCS funds."

Auditor's Comment

      While not wasting CNCS funds is commendable, AACC lacked the authority to reprogram
      unused funds to the following grant year. Our position on these questioned costs is
      unchanged.

      Unreasonable Hotel Charges - Fiscal Year 2000

      Hotel charges of $410 claimed as Dissemination were incurred by the Learn and Serve
      Project Coordinator while assisting with the AACC 2000 annual convention as part of the
      Learn and Serve program and presentation. The convention was held locally and the Project
      Coordinator was not on official travel status. OMB Circular A-122; Attachment A, General
      Principles; Section A.(2)(a.) states that to be allowable under an award, costs must meet the
      following general criteria: be reasonable for the performance of the award and be allocable
      thereto under these principles. In Section 3.(a) the Circular states that in determining the
      reasonableness of a given cost, consideration shall be given to: whether the cost is of a type
      generally recognized as ordinary and necessary for the operation of the organization or the
      performance of the award. We do not consider the incurrence of hotel expense while not
      on official travel status to meet the above standard for reasonableness. As a result, we have
      questioned this $410 charge against Federal funds.
                                                                                        Exhibit B
                                                                                       Page 4 of 8

American Association of Community Colleges' Response

      AACC disagrees with the $410 of costs which were questioned as unreasonable asserting
      that AACC staff are not federal employees and that AACC had prior approval of these
      costs since they were included in the CNCS-approved budget.

Auditor's Comment

      We disagree. Neither the budget submitted by AACC nor that approved by CNCS
      identifies hotel costs for AACC staff while attending the convention in Washington, DC.
      Our position on these costs questioned is unchanged.

3.    Indirect Costs

       We calculated allowable indirect costs by reducing claimed costs by the amount of
       questioned costs and then applying the grant limit of 5 percent to the reduced amount. For
       fiscal years 1998 and 1999 this resulted in questioned costs of $624 and $43 1, respectively.
       For fiscal year 2000, however, AACC had claimed approximately 3.25 percent. Application
       of the 5 percent factor to claimed costs net of questioned costs resulted in an upward
       adjustment of $3,247, or net underclaimed indirect costs of $2,192 ($3,247 - $624 - $431).

Costs Questioned at Submantees

4.     Our review of the $316,045 claimed by AACC s sixteen Learn and Serve subgrantees
       resulted in $72,164 of questioned costs for the three grant fiscal years. Costs of $52,556
       were not supported by adequate documentation and $13,390 were claimed in the incorrect
       fiscal year. Subgrantee administrative costs questioned were $1,202 and an additional
       $2,096 was claimed by AACC in excess of costs reported by the subgrantees.

       Description                    FY 1998         FY 1999            FY 2000            Total

       Unsupported costs              $27,027         $ 15,985       $     9,544        $ 52,556

       Incorrect program year            5,832            2,520            5,038            13,390

       Related administrative
        costs claimed                      278              72 8             196             1,202

       Excess costs claimed              2,490                             2,526             5,016

       Questioned costs              w                $   19.233     $    17.304        $   72.164
                                                 17
                                                                                            Exhibit B
                                                                                           Page 5 of 8

       a.      Unsupported Costs

               AACC program management did not require or request that subgrantees submit
               documentation supporting amounts claimed. Consequently, it was not possible to
                monitor or determine that costs claimed on the subgrantee quarterly cost reports
               were allowable, accurate or reasonable from the information at AACC. OMB
               Circular A- 110, Subpart A, 5 1(a) states that recipients are responsible for managing
               and monitoring each project, program, subaward, function or activity supported by
               the award. Subpart B, 2 1(b)(2) requires that recipients financial management
               systems provide for records that identify accurately the source and application of
               funds for federally-sponsored activities. Subpart B, 2l(b)(7) requires accounting
               records including cost accounting records that are supported by source documents.
               Moreover, much of the documentation provided in response to audit requests
               (including information provided by the subgrantees) was either inadequate or
               missing. As a result, we have questioned $52,556 in costs that were unsupported.

American Association of Community Colleges7Response

       AACC disagrees with the $52,556 of costs which were questioned because they were
       unsupported. AACC acknowledges that the audit did identify potential weaknesses at a
       number of the subgrantees and that AACC has taken steps to further enhance its
       subgrantee monitoring plan.

Auditor's Comment

       AACC does not dispute the audit conclusion that these costs were not supported. Nor
       does AACC present any documentation which would support allowability of the amounts
       questioned. Our position on these questioned costs is unchanged.

Corporation for National and Community Service s Response

The Corporation disagrees with the recommendation that AACC require its subgrantees to submit
documentation is support of costs claimed on their periodic reports because submission of all back-
up documentation is not required by Federal grant management guidelines. The Corporation does,
however, acknowledge that the grantee is responsible for ensuring that its subgrantees maintain that
documentation and for periodically reviewing these records for adequacy.

Auditor's Comment

Our point is that the grantee was not fulfilling its responsibility and that, consequently, over $52,000
of claimed subrecipient costs were not properly supported and now must be recovered from the
                                                  18
                                                                                                         Exhibit B
                                                                                                        Page 6 of 8

grantee, a situation which could have been avoided had the grantee required submission of
supporting documentation or otherwise complied effectively with its responsibility under OMB
Circular A-1 10 to ensure that the subrecipient maintained documentation.


        b.          incorrect Fiscal Year

                    The following table summarizes costs claimed in a fiscal year other than the one in
                    which the costs were incurred, by year, by school.

          College                           N 1998               N 1998               FY 1998              Totals
          Nunez                               $4,466                $2,520              $5,038            $12,024
          Johnson County                        1,366                                                       1,366
          Totals                              $5,832    1           $2,520   1           $5,038     1     $13,390


American Association of Community Colleges' Response

        AACC disagrees with $13,390 of costs which were questioned because they were claimed
        in a grant year other than the one in which they were incurred, asserting that the subgrantees
        followed their respective institutional policies on encumbering fimds, thereby making plans
        for and using grant funds according to their approved and audited policies.

Auditor's Comment

        We disagree. Accrual basis accounting is the preferred method of accounting under OMB
        Circular A-1 10. Implicit in the use of accrual accounting is the presumption that the amounts
        to be recorded as expenditures will be those for which materials or services have been
        received and used as of the balance sheet date. Encumbrance accounting is not acceptable
        and such amounts should not be reported either as expenditures or as liabilities in the balance
        sheet.  '



' ~ u d iGuide
         t     for Colleges and Universities, American Institute of Certified Public Accountants.
                                                            19
                                                                                         Exhibit B
                                                                                        Page 7 of 8

            c.      Related Administrative Costs Claimed

            Allowable administrative costs were recomputed for schools with questioned costs.
            Based on this recomputation, we have also questioned administrative costs of $1,202
            as scheduled in the table below.



      College                        FY 1998           FY 1999           FY 2000           Totals

      Iowa Western                       $125              $371              $131            $627

      Oakton                                                  59               25              84
     I Albuquerque TVI I                    36   1            32   1           40   1         108
      Tidewater                            117              266                               383
      Totals                             $278    1         $728    1         $196   1      $1,202

     Details related to subgrantee costs questioned are presented at Exhibit A-2 and Schedules A-
     1-B, A-2-B and A-3-B.

5.   Costs in Excess of Actual

     An excess of $2,096 of subgrantee costs over those claimed by the subgrantees was charged
     to the grant. OMB Circular A-1 10, Subpart A, 5 1(a) states that recipients are responsible
     for managing and monitoring each project, program, subaward, function or activity supported
     by the award. Subpart B, 21(b)(2) requires that recipients financial management systems
     provide for records that identify accurately the source and application of funds for federally-
     sponsored activities. The following table presents the differences between costs reported
     by subgrantees and costs claimed by AACC for program fiscal years 1998 and 2000.
                                                                                         Exhibit B
                                                                                        Page 8 of 8

                                                                                 2000
                                 Claimed   Re:.          19;      Claimed    Reported        2000
                                              Per Sub   Totals                Per Sub       Totals

        NW Arkansas                                                 $8,000

        Albuquerque TYI     I     $5,000

        C C Rhode Island           5,000

        Glendale             1     5,000

        Johnson County             5,000




      AACC provided advances to its subgrantees, recorded them as grant disbursements when
      disbursed, and did not adjust the Detailed General Ledger to the actual costs that were later
      reported by the subgrantees. As a result, we have questioned the excess subgrantee costs
      claimed of $570 and $1,526 in fiscal years 1998 and 2000 for a total of $2,096.

American Association of Community Colleges' Response

      AACC disagrees with $2,096 of costs which were questioned because the amounts claimed
      by AACC were in excess of those reported by subgrantees. AACC notes that mentors were
      not required to submit reports for individual awards of $500 for honoraria, and alludes to
      these honoraria being charged, on AACC7srecords, to a different account. As a result, the
      amounts presented as negative questioned costs should be eliminated, increasing the amount
      of questioned costs to $5,016 (NW Arkansas - $297; CC Rhode Island - $2,490; Miami-Dade
      - $2,229). We have corrected the amounts presented as costs questioned to reflect $5,016
      of questioned costs.

      AACC acknowledges that it claimed $5,000 for the Community College of Rhode Island
      (CCRI) and that CCRI only spent $2,510. AACC asserts that the difference, $2,490, was
      returned to AACC in 1999 and used to produce AACC service learning publications.

Auditor's Comment

       Since we cannot verify whether these publications were or were not claimed under the grant,
       we cannot accept AACC7sexplanation. Accordingly, our position on these questioned costs
       is unchanged. AACC has not challenged the costs questioned as excess related to Miami-
       Dade.
                                                 21
              INDEPENDENT AUDITOR'S REPORT

                           ON

COMPLIANCE AND INTERNAL CONTROLS OVER FINANCIAL REPORTING
                        LEONARD G . BIRNBAUM                         AND     COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                          WASHINGTON. D.C.

LEONARD G. BIRNBAUM                                                                                    SUMMIT. NEW JERSEY

DAVID SAKOFS                                                                                       REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE




       Inspector General
       Corporation for National and Community Service


                      INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND
                        INTERNAL CONTROLS OVER FINANCIAL REPORTING

       We have audited the Schedule of Award Costs which summarizes the claimed costs of the American
       Association of Community Colleges under the Corporation for National and Community Service
        award number 97LHEDC001 for the period September 1, 1997 to August 3 1,2000, and have issued
       our report thereon dated July 3,2001.

       We conducted our audit in accordance with auditing standards generally accepted in the United
       States of America and standards applicable to financial audits contained in Government Auditing
       Standards issued by the Comptroller General of the United States.


       Compliance

       As part of obtaining reasonable assurance about whether the American Association of Community
       Colleges' financial schedules are free of material misstatement, we performed tests of compliance
       with certain provisions of laws, regulations, and terms and conditions of the grant award,
       noncompliance with which could have a direct and material effect on the determination of allowable
       amounts. However, providing an opinion on compliance with those provisions was not an objective
       of our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed
       several instances of noncompliance that are required to be reported under Government Auditing
       Standards and which are described below.




                             MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National and Community Service


1.     Questioned Subgrantee Costs

       Our review of documentation submitted by subgrantees disclosed $52,556 that was not
       properly supported and $13,390 that was incurred in a fiscal year other than the one in which
       the costs were claimed. Administrative costs claimed related to these costs, in the amount
       of $1,202 were also questioned. OMB Circular A-1 10, Subpart A, 5 1(a) states that
         recipients are responsible for managing and monitoring each project, program, subaward,
       function or activity supported by the award. Subpart B, 21(b)(2) requires that recipients
       financial management systems provide for records that identify accurately the source and
       application of funds for federally-sponsored activities. Subpart B, 21(b)(7) requires
         accounting records including cost accounting records that are supported by source
       documents. Please refer to Exhibit B, Note 4. for detail.

Recommendation

       AACC is responsible for the funds provided to operate the Learn and Serve program
       including the amounts allocated to subgrantees. In order to adequately monitor the use of
       these funds, subgrantees should be required to submit documentation in support of costs
       claimed on their periodic reports and this documentation should be reviewed to verify its
       accuracy, allowability and relevance to the program.

American Association of Community Colleges Response

       AACC Learn and Serve project staff will review subgrantee financial systems and
       documentation during site visits to its subgrantee colleges, and conduct periodic testing of
       backup documentation. Cognizant of the federal Paperwork Reduction Act, AACC will
       continue to require and review quarterly and semi-annual financial reports from its
       subgrantees, as well as OMB Circular A-133 audits and Financial Status Reports, for
       accuracy, allowability, and relevance to the program.

Auditor s Comment

       AACC's response is considered adequate if it ensures that amounts claimed by subrecipients
       are accurate, allowable and allocable.

2.     Excess Subgrantee Costs Claimed

       An excess of $2,096 over that which was claimed by the subgrantees was charged to the
       grant. OMB Circular A-1 10, Subpart A, 51(a) states that recipients are responsible for
       managing and monitoring each project, program, subaward, function or activity supported
Inspector General
Corporation for National and Community Service


       by the award. Subpart B, 21(b)(2) requires that recipients financial management systems
       provide for records that identify accurately the source and application of funds for federally-
       sponsored activities. Please refer to Exhibit B, Note 5 for detail.

Recommendation

       We recommend that AACC charge subgrantee payments to an advance account until
       subgrantee cost reports have been submitted. Charges to the grant should be limited to the
       amounts claimed by the subgrantees.

American Association of Community Colleges Response

       AACC is investigating how to charge subgrantee payments to an advance account, as
       recommended, to make for more accurate reconciliation with actual subgrantee expenditures.

Auditor s Comment

       AACC's response is inadequate since it does not commit to using an advance account.

3.     Other Direct Costs - Inadequate Documentation

       Our review of other direct costs claimed by AACC, excluding subgrantees, disclosed that
       Travel and Training costs of $456 and $435 in grant fiscal years 1998 and 1999 were not
       supported by adequate documentation. The Grant Award Provisions for Learn and Serve
       America: Higher Education Programs, Section B.22.b. states that the Grantee must maintain
       adequate supporting documents for every expenditure (Federal and non-Federal) and in-kind
       contributions made under this Grant. Costs must be shown in books or record, and must be
       supported by a source document, such as receipt, travel voucher, invoice, bill, affidavit, in-
       kind voucher or similar document.         OMB Circular A-122, Attachment A, General
       Principles, A.2.g. states that to be allowable under an award, costs must ...be adequately
       documented. Please refer to Exhibit B, Note 2 for detail.

Recommendation

       Although the missing documentation requested for audit may have been isolated incidents,
       we recommend that AACC make an effort to ensure all documentation in support of federal
       programs be retained as required by OMB Circular A- 122.
Inspector General
Corporation for National and Community Service


American Association of Community Colleges' Response

       AACC will make every effort to ensure all expenses are appropriately documented and that
       such documentation is retained.

Auditor's Comment

       AACC's response is considered adequate.

3.     Other Direct Costs- continued - Cost Charged to Incorrect Fiscal Year

       AACC purchased airline tickets and claimed travel costs of $489 in grant fiscal year 2000
       and later applied the cost to travel taken in fiscal year 2001. On numerous occasions AACC
       charged prepaid travel costs such as airline tickets and hotel reservations to the grant when
       payment was submitted, rather that when the trip was actually taken. Travel vouchers
       submitted later would include only the balance of costs incurred. In this instance, when the
       trip was canceled and the cost applied to another trip in a subsequent fiscal year, costs were
       overstated in one year and understated in the next. The Grant Award Provisions for Learn
       and Serve America: Higher Education Programs, Section B.22.a. states that the financial
       management system "must be able to identify costs by programmatic year..." We also noted
       that it was not unusual for different cost elements of a single trip to be charged to two or
       more accounts in the general ledger. Please refer to Exhibit B, Note 2. for detail.

Recommendation

       We recommend that all travel costs for each trip be included on the travel voucher, that no
       costs are charged to the grant prior to conclusion of the trip, and that an effort is made to
       ensure that the costs are posted to the correct accounts.

American Association of Community Colleges' Response

       AACC cannot postpone paying for airline and train tickets charged to its corporate charge
       accounts. AACC staff are instructed to purchase airline tickets well in advance of travel to
       obtain the most cost-effective fares. AACC will make every effort to indicate all travel costs
       on travel reimbursement forms, to ensure costs are posted to the correct accounts.

Auditor's Comment

       AACC's response is considered adequate.
Inspector General
Corporauon for National and Community Service



4.     Employee Fringe Benefits

       AACC claimed excess retirement benefits costs of $232 and $548 in grant fiscal years 1999
       and 2000. The Grant Award Provisions for Learn and Serve America: Higher Education
       Programs, Section B.22.a. states that . . .financial management systems must be capable of
       distinguishing expenditures attributable to this grant from expenditures not attributable to
       this grant. Please refer to Exhibit B, Note 1 for detail.

Recommendation

       We recommend that AACC reconcile retirement charges to payroll allocations on a periodic
       basis and make any necessary adjustments to ensure that retirement costs are allocated at
       similar rates and for the correct employees.

American Association of Community Colleges Response

       AACC will reconcile retirement charges and make any necessary adjustments to payroll
       allocations as recommended.

Auditor s Comment

       AACC's response is considered adequate.

5.     Unreasonable Hotel Charges

       Hotel charges of $410 claimed as Dissemination were incurred by the Learn and Serve
       Project Coordinator while assisting with the AACC 2000 annual convention. The
       convention was held locally and the Project Coordinator was not on official travel status.
       OMB Circular A-122, Attachment A, General Principles, A.(2)(a.) states that to be
       allowable under an award, costs must meet the following general criteria: be reasonable for
       the performance of the award and be allocable thereto under these principles. In Section
       3.(a) the Circular states that in determining the reasonableness of a given cost,
       consideration shall be given to: whether the cost is of a type generally recognized as ordinary
       and necessary for the operation of the organization or the performance of the award. Please
       refer to Exhibit B, Note 2 for detail.
Inspector General
Corporation for National and Community Service


Recommendation

       We recommend that AACC program and accounting personnel obtain and become familiar
       with the cost principles of Circular A-122 to ensure that all travel related costs charged to the
       grant are reasonable and necessary.

American Association of Community Colleges' Response

       For the reasons discussed in note 2 to Exhibit b, AACC disagrees that these costs are
       unallowable. AACC, however, has stated that its program and accounting personnel will
       obtain and become familiar with the cost principles of OMB Circular A-122 as
       recommended.

Auditor's Comment

       AACC's response is considered adequate.

6.     Unrecorded Match Costs

       AACC did not record all match costs that were chargeable to the grant in its detailed general
       ledger. Unrecorded match expenditures consisted of indirect costs in excess of the 5 percent
       limitation in grant years 1998 and 2000 and costs incurred and claimed by subgrantees in
       grant year 2000. OMB Circular A-1 10, Subpart B, 21(b)(2) requires that recipients' financial
       management systems provide for "records that identify accurately the source and application
       of funds for federally-sponsored activities." The accounting department was provided the
       cost matching data by the Program Coordinator but did not properly post the information to
       the detailed general ledger. The failure to record all allowable match costs to the general
       ledger resulted in an understatement, and if not properly accounted for in future periods,
       could result in a deficiency and additional questioned costs. Please refer to Exhibit B for
       detail.

Recommendation

       We recommend that AACC accounting personnel ensure that cost matching data is posted
       to the Detailed General Ledger.

American Association of Community CollegesJResponse

       AACC accounting personnel are posting all cost matching data to the detailed general ledger.
Inspector General
Corporation for National and Community Service


Auditor's Comment

       AACC's response is considered adequate.

Internal Control Over Financial Reporting

       In planning and performing our audit, we considered American Association of Community
       Colleges' internal control over financial reporting in order to determine our auditing
       procedures for the purpose of expressing our opinion on the financial schedules and not to
       provide assurance on the internal control over financial reporting. Our consideration of the
       internal control over financial reporting would not necessarily disclose all matters in the
       internal control over financial reporting that might be a material weaknesses. A material
       weakness is a condition in which the design or operation of one or more of the internal
       control components does not reduce to a relatively low level the risk that misstatements in
       amounts that would be material in relation to the financial statements being audited may
       occur and not be detected within a timely period by employees in the normal course of
       performing their assigned hctions. We noted no matters involving the internal control over
       financial reporting and its operation that we consider to be material weaknesses.

Other Matters

7.     The Corporation's Monitoring Policies and Procedures for Learn and Serve Promam

       The Corporation is responsible for monitoring grants in order to reduce the risk that the
       grantees may be unable to properly manage, safeguard, and account for grant funds in
       accordance with federal law and grant provisions. The Corporation has not implemented
       specific Learn and Serve monitoring policies, procedures and guidelines nor does it require
       that documentation be maintained that would provide evidence of ongoing monitoring
       activity or procedures performed.

       Interviews of the Corporation's grants management and program staff disclosed that while
       site visits are not required, procedures performed by the Corporation's staff included review
       and evaluation of AACC's Semi-Annual Progress Reports and annual renewal applications,
       and that issues that are identified are discussed with grantee personnel. The grants
       management and program staff also stated that the Service-Learning program staff prefer
       awarding grants to established entities with prior experience running Federal programs so
       as to minimize potential problems, and that program staff are aware of the less experienced
       Learn and Serve programs and tend to monitor them more closely than those with greater
       program familiarity. They also indicated that grantee staff changes must be reported to the
       Corporation, and that grantee management turnover can result in greater scrutiny.
Inspector General
Corporation for National and Community Service


       Program and grantee personnel reported that contacts were frequent, but documentation of
       visits and communication was minimal.

       In our view, the current lack of procedures and guidelines can result in inconsistent
       monitoring coverage of grantees and reduce the ability to effectively evaluate the quality and
       extent of monitoring.

Recommendation

       We recommend that the Corporation establish monitoring policies and procedures for its
       Learn and Serve program and require documentation of the procedures performed and results
       obtained from monitoring and site visits to grantees.

Corporation for National and Community Service's Response

       The Corporation disagrees with the recommendation that the Corporation establish
       monitoring policies and procedures for its Learn and Serve grants. The Corporation does,
       however, acknowledge that its Learn and Serve staff is strengthening its procedures for site
       visits and other components of grantee monitoring to ensure that monitoring is documented
       and issues specific to their grantees are addressed in Corporation monitoring procedures.

Auditor's Comment

       Our point is that the Corporation does not now have any policies and procedures for
       monitoring its Learn and Serve grants. We commend the Corporation for its commitment
       to strengthening its procedures in this regard.

This report is intended for the information and use of the Corporation for National and Community
Service's Office of the Inspector General, as well as management of the Corporation for National
an Community Service and the American Association of Community Colleges and its subrecipients.
However, this report is a matter of public record and its distribution is not limited.
                                            .
                                            >z?-.       -A %
                                                 Leonard G. Birnbaum and Company



Alexandria, Virginia
July 3, 2001
                         Appendix A


Response of the Corporation for National and Community Service
                                                         CORPORATION

                                                         FOR NATIONAL

                                                              SERVICE




DATE:                December 7,2001

TO:                  Luise S. Jordan, Inspector General

THRU:                William Anderson, D

FROM:
                         w
SUBJECT:             Response to OIG Draft Audit ~e\pea021-03,Audit of Corporation's Grant ro the
                     American Association of Community Colleges


We have reviewed the draft audit report of the American Association of Community Colleges
(AACC) grant. Due to the limited timeframe for response, our comments do not address all of
the recommendations. In some cases, we will need to review the work papers supporting the
finding before we can determine appropriate corrective action. We will respond to all findings
and recommendations once the audit is issued.

The auditors recommend that subgrantees be required to submit documentation in support of
costs claimed on their periodic reports to the prime grantee. The Corporation disagrees. The
submission of all back-up documentation is not required by federal grant management
guidelines. We believe that it is not reasonable or practical for all supporting documentation to
be submitted with reports on grant expenditures. The grantee is responsible for ensuring that its
subgrantees maintain that documentation and for periodically reviewing it for adequacy. As
noted by AACC, they are reviewing their monitoring procedures to ensure they are adequately
assessing their subgrantees' financial management systems and reviewing documentation that
supports costs.

The auditors also recommended that the Corporation establish monitoring policies and
procedures for its Learn and Serve grants. The Corporation's policy is to employ a risk-based
approach to monitoring all of its grantees. The Learn and Serve grantees generally fall into a low
risk category due to their relatively low dollar amount and because they are usually made to
established entities with prior experience running federal programs. The Learn and Serve
America staff is strengthening its procedures for site visits and other components of grantee
monitoring to ensure that monitoring is documented and issues specific to their grantees are
addressed in Corporation monitoring procedures.


Cc:      Amy Cohen, Director, Learn and Serve America
         Wendy Zenker, Chief Operating Officer



NATIONAL SERVICE: GETTING THINGS DONE                                  1201 New York Avenue, N.W Washington. D.C.20525
AmeriCorps   . karn and Sen-e America . Nnfionol Senior Senice Corps   telephone:202-606-5000. website: www.nationa~se~ce.org
                     Appendix B


Response of American Association of Community Colleges
One Dupont Circle, NW
                        ~~~~~b~~7, 2001
Suite 410
Washington, DC 20036

w.aacc.nche.edu         Luke S. Jordan
[TI202.728.0200         Inspector General
F] 202,833,2467         Corporation for National and Community Service
                        1201 New York Avenue, NW
                        Washington, DC 20525

                        Dear Ms. Jordan:

                        Enclosed is the American Association of Community Colleges' response to the draft
                        report resulting from the Office of Inspector General's audit of AACC's grant number
                        97LHEDC001 from the Corporation for National and Community Service.

                        We appreciate the support CNCS has given to AACC and its member colleges for the
                        past seven years, and look forward to a continued, mutually beneficial working
                        relationship with CNCS. If you have any questions, please contact Gail Robinson,
                        AACC's coordinator of service learning, at 2021728-0200, ext. 254, or
                        grobinson @nacc.nche.edu.

                        Sincerely,



                        George R. Boggs
                        President


                        Enclosure

                        cc:    Lynn Barnett
                               Mary K. Latif
                               Gail Robinson
                        American Association of Community Colleges

                              Response to Draft Audit Report
                      Corporation for National and Community Service
                               Grant Number 97LHEDC001

                                       December 7,2001


       Following are the American Association of Community Colleges' (AACC) responses to
the October 29,2001, draft audit report by Leonard G. Birnbaum and Company to the Office of
Inspector General of the Corporation for National and Community Service (CNCS), for the
period September 1, 1997, through August 3 1,2000.


Costs Questioned at the Grantee, AACC

1.     Excess retirement fn'nge benefits

       AACC will reallocate excess costs from the CNCS grant to its general fund.

2.     Inadequately documented direct costs

        One of the costs in question, $456, was for the AACC Learn and Serve project
coordinator's hotel accommodations at the AACC national convention in April 1998 in Miami.
The project coordinator presented on AACC's project and CNCS programs at the convention.
AACC was unable to locate a copy of the hotel bill in its files (the rest of the project
coordinator's documented expenses were and are on file at AACC). AACC contacted the
Fontainebleau Hilton Hotel to obtain a copy of the bill and was told that, during a recent
hurricane, its records from the April 1998 period were damaged and irretrievable. AACC has
twice requested a letter from the hotel confirming this fact, but has not received it. AACC makes
every effort to keep its documentation in proper files and will continue to do so.

         The other costs in question, totaling $435, consisted of $269 for airfare and $166 in
expenses for an AACC project mentor's site visit to his mentee, Oakton Community College, in
April 1999. Even after several telephone and e-mail requests, the mentor never submitted his
airline ticket stubs (the airfare had been prepaid on AACC's American Express account, per
AACC policy). Confirmation that the mentor did in fact visit his mentee is available. No single
expense of the $166 (meals, tips, taxi, parking) exceeded $25, and therefore no receipts were
required nor was documentation missing, per AACC policy. AACC takes exception to the
auditor's opinion in this case.

3.     Cost claimed in incorrect program year

      The cost in question was for an airline ticket to a national service learning conference.
The AACC Learn and Serve project coordinator had to cancel the trip after the ticket was
                                                             AACC Response to CNCS Draft Audit Report
                                                                                   December 7,2001


purchased. AACC applied the credit for the cancelled flight to the next appropriate project travel
event, in order not to waste CNCS funds.

4.     Unreasonable hotel charges

        AACC staff are not federal employees. AACC's Learn and Serve project coordinator
presented on service learning and CNCS programs at the AACC national convention in April
2000 in Washington, DC, as planned in AACC's CNCS-approved budget, and as such was on
official travel status. Further, per 45CFR2541, prior approval is defined as documentation
evidencing consent prior to incurring specific cost. Inclusion in the CNCS-approved budget
represents prior approval and thus such cost is allowable.


Costs Questioned at Subgrantees

1.     Inadequately documented or unsupported costs

       AACC takes exception to the auditor's opinion that "it was not possible to monitor or
determine that costs claimed on the subgrantee quarterly cost reports were allowable, accurate, or
reasonable" as a result of AACC not requiring or requesting that subgrantees submit
documentation supporting amounts claimed. As a matter of regulation, there is no requirement
for AACC, as the prime grantee, to require or request the subgrantee to submit documentation
supporting the amounts claimed. The auditor was incorrect in assuming that AACC had the
responsibility to maintain all the documentation for the subgrantees' expenditures.

         Similarly, the auditor cites financial management and record-keeping responsibilities,
which are that of the prime and subgrantees. AACC concurs that these are responsibilities of
itself as the prime grantee and its subgrantees. However, the auditor implies that AACC's failure
to require or request supporting documentation of subgrantees inhibits AACC's ability to
properly report on the use of federal funds. Making such an implication is incorrect. AACC's
ability to monitor subgrantees and determine allowability of costs subsequently claimed by
subgrantees is dependent upon having an adequate subgrantee monitoring plan that may include,
but is not required to include, submission of supporting documentation for amounts claimed.
Both OMB Circular A-1 10 and 45CFR2541 were incorporated into AACC's agreement with
CNCS. As the auditor notes, per OMB Circular A- 110 as well as 45CFR254 1.400, "recipients
are responsible for managing and monitoring each project, program, subaward, function or
activity supported by the award." AACC did have a subgrantee monitoring system in place to
meet the requirements of OMB Circular A-1 10 and 45CFR2541, as well as OMB Circular
A-133.

        AACC's subgrantee monitoring plan consisted of making responsibility determinations
of prospective awardees, providing funds on an incremental basis to subgrantees based upon
reporting of activity milestones, reporting of costs, periodic field visits, and the requirement for
each subgrantee to submit a copy of its OMB Circular A-133 audit on an annual basis. This plan
is consistent with OMB's view of subgrantee monitoring as expressed in the Comments and
Responses to the 1996 revision to OMB Circular A-133, which states, "OMB believes that this
                                                            AACC Response to CNCS Draft Audit Report
                                                                                  December 7,2001


approach to designing subgrantee monitoring procedures should result in cost-effective
monitoring and minimize the return to grant-by-grant auditing . . . ."

         AACC's service learning grant program provided two types of subgrants: mentee and
mentor grants. Mentee subgrants were awarded in $8,000-10,000 increments and mentor
subgrants were provided in $3,500-5,000 increments. Fifty percent of subgrantee funding was
provided upon commencement of the award, thirty percent at the midpoint upon receipt of a
written status report, and the final twenty percent upon receipt of the written year-end report.
Each subgrantee was required to contribute a 100 percent match of its funds to the federal funds
passed through by AACC. The milestone reimbursements, along with the 100 percent matching
requirement, reduced the risk associated with the subgrantees. Each of the subgrantees met or
exceeded the 100 percent match, which is subject to the same allowability, allocability, and
reasonableness concerns of federal funds. The auditor questioned no matching costs. Where the
subgrantee exceeded the matching requirement, the subgrantee could use such expenditures in
lieu of the costs questioned by the auditor. AACC also made field visits to mentee subgrantees
at least once over the three-year program.

        For the very reason the auditor did not conduct fieldwork at the subgrantees (small
subgrants and the expense of auditing subgrantees), AACC implemented a risk-based, cost-
effective monitoring program of subgrantees, relying ultimately on the subgrantees' OMB
Circular A-133 audit, which is the federal government's primary tool for determining
allowability of costs incurred under federal awards. A review of A-133 audits submitted by the
sixteen subgrantees disclosed no questioned or unsupported costs related to the service learning
program.

        The auditor's testing of subgrantees did identify potential weaknesses at a number of the
subgrantees. AACC has taken steps to further enhance its subgrantee monitoring plan. AACC
will include financial testing along with its field visits to subgrantees. AACC will also include
periodic testing of milestone reimbursements. AACC believes these steps will not only enhance
its subgrantee monitoring plan but also promote more responsible subgrantees. This serves not
as a concurrence to the auditor's unsupported costs, but recognition that AACC's subgrantee
monitoring plan can be strengthened at a minimal cost.

         AACC does not concur with the inadequate documentation or unsupported cost claims
made by the auditor. AACC has in place a risk-based, cost-effective subgrantee monitoring plan,
it instituted milestone payments that ensured the subgrantees fulfilled their responsibilities under
the subgrants, each subgrantee met or exceeded its 100 percent matching requirement, and
ultimately each subgrantee submitted an A-133 audit that disclosed no questioned costs related to
the service learning program.

2.     Costs charged to incorrect program year

       AACC subgrantees Nunez Community College and Johnson County Community College
followed their respective institutional policies on encumbering funds, thereby making plans for
and using grant funds according to their approved and audited policies.
                                                           AACC Response to CNCS Draft Audit Report
                                                                                 December 7, 2001


3.     Excess costs claimed

        In the case of Albuquerque TVI, Glendale, and Johnson County Community Colleges,
AACC did not claim any excess costs. The auditor erred in not loolung at all budget categories
to reconcile grant payments and reports. In 1998, each of these mentor colleges received $5,000
in the subcontract category to carry out their planned service learning programs, plus $500 in the
training category as honoraria for the individual mentor, totaling $5,500. The pattern was the
same for 2000, with mentor subcontracts of $3,500 and honoraria of $500, totaling $4,000. The
individual mentors were not required to submit reports for the $500 honoraria payments.
Documentation was and is available for these transactions.

       In the case of Community College of Rhode Island, the college only spent $ 2 3 10 of its
$5,000 Year One subgrant. CCRI returned the remaining $2,490 to AACC in 1999 (Year Two),
after Year One had been closed. The returned funds were deposited in AACC's Year Two
account, per instructions from the CNCS program officer, to be used to produce AACC service
learning publications. Documentation was and is available for these transactions.


Findings Related to Compliance and Internal Controls Over Financial Reporting

1.     "AACC was unable to adequately monitor subgrantee costs claimed because
       documentation was not obtained"

        AACC Learn and Serve project staff will review subgrantee financial systems and
documentation during site visits to its subgrantee colleges, and conduct periodic testing of
backup documentation. Cognizant of the federal Paperwork Reduction Act, AACC will continue
to require and review quarterly and semi-annual financial reports from its subgrantees, as well as
OMB Circular A-133 audits and Financial Status Reports, for accuracy, allowability, and
relevance to the program.

2.     "Subgrantee costs were charged to the grant in excess of the amount claimed by the
       subgrantees"

      AACC is investigating how to charge subgrantee payments to an advance account, as
recommended, to make for more accurate reconciliation with actual subgrantee expenditures.

3.     "AACC could not locate documentation for two expenditures and applied costs charged
       in one fiscal year to another"

        AACC will make every effort to ensure all expenses are appropriately documented and
that such documentation is retained. In addition, AACC will make every effort to indicate all
travel costs on travel reimbursement forms, to ensure costs are posted to the correct accounts.
AACC cannot postpone paying for airline and train tickets charged to its corporate charge
accounts. AACC staff are instructed to purchase airline tickets well in advance of travel to
obtain the most cost-effective fares.
                                                            AACC Response to CNCS Draft Audit Report
                                                                                  December 7,2001


4.        "Retirementfinge benefits were incorrectly computed"

        AACC will reconcile retirement charges and make any necessary adjustments to payroll
allocations as recommended.

5.        "Unreasonable hotel charges"

       AACC program and accounting personnel will obtain and become familiar with the cost
principles of OMB Circular A- 122 as recommended.

6.        "AACC did not record all match costs to the general ledger that were chargeable to the
          grant"

          AACC accounting personnel are posting all cost matching data to the detailed general
ledger.
